                                     Office of Inspector General
                                     U.S. Small Business Administration



                                                                                                March-April, 2012 Update


  Business Loans                                                      alleged that the manager received loan applications from
                                                                      potential borrowers and then inflated the income
  Guaranty Purchase Review Needs Improvement                          information provided by the applicants before submitting
  On March 23, the OIG issued Report 12-11R, High-Dollar              the fraudulent loan applications to various banks. The
  Early-Defaulted Loans Require an Increased Degree of                investigation determined there were 26 loans or lines of
  Scrutiny and Improved Quality Control at the National               credit where the income information provided to the banks
  Guaranty Purchase Center. This was the last in a series of          was not the same as what the applicants provided to the
  reports issued that related to the OIG’s audit of 25                manager. Of these 26, at least 14 were delinquent or
  purchased 7(a) Recovery Act loans. Overall, material                defaulted, with a cumulative outstanding balance of
  deficiencies were identified in 14 of the 25 early-defaulted        $530,512. The SBA guaranteed five of the 14 delinquent
  loans selected for review. These deficiencies resulted in           loans or lines of credit.
  questioned costs or recoverable guaranty payments totaling
  approximately $10.7 million. The audit found that the               Former Utah Mortgage Loan Officer Pleads Guilty
  National Guaranty Purchase Center (NGPC) either made a              On April 4, 2012, a business owner and former mortgage
  purchase error or did not identify the deficiencies during its      loan officer pled guilty to one count of money laundering.
  guaranty purchase reviews on six of the nine loans. This            The investigation disclosed that he and his business partner
  resulted in improper payments totaling approximately $3.3           recruited “straw borrowers” and used the borrowers’ names
  million. Due to the high number of deficiencies identified          and good credit to obtain, fraudulently, $335,000 in loans.
  and the resulting improper payments, we recommended that            The pair caused the straw borrowers, on the promise of
  the SBA establish a specialized early-default purchase              future rewards, to submit documents indicating they owned
  review unit at the NGPC.                                            thriving businesses, when, in fact, the majority of the
                                                                      businesses only existed on paper. Both subjects
  Missouri Woman Pleads Guilty                                        fraudulently obtained a total of four SBA loans and two
  On March 8, 2012, a Missouri woman pled guilty to a                 regular bank loans. This case was initiated based on a
  superseding information, filed on the same date, charging           referral from the SBA Utah District Office. This is a joint
  her with one count of making a false statement to the SBA           investigation with the Internal Revenue Service, Criminal
  and aiding and abetting. The woman was the registered               Investigations (IRS CI).
  agent for a corporation organized by her father. She had no
  ownership interest in, or control of the corporation;               Former President of Michigan Firm Found Guilty
  however, she obtained two SBA-guaranteed loans, totaling            On April 9, 2012, the president of a real estate investment
  $350,000, for the business. In connection with her                  firm was found guilty in a bench trial in Wayne County
  application for these SBA loans, the woman knowingly                Circuit Court, Detroit, Michigan. Pursuant to a criminal
  made false statements to the SBA. She purported to have             information filed on September 9, 2011, the subject was
  never been charged, arrested, or convicted of any criminal          found guilty of multiple felony counts, including seven
  offense, when, in fact, she had been charged with illegally         counts of false pretenses with intent to defraud. These
  signing a petition, passing a bad check, and possession of a        convictions resulted from his participation in multiple fraud
  controlled substance. This is a joint investigation with the        schemes, including two loan-fraud schemes against the
  Federal Bureau of Investigation (FBI).                              SBA. The first loan-fraud scheme involved a $98,000 SBA-
                                                                      guaranteed loan to a company purportedly owned by the
  Texas Sales Manager Sentenced                                       subject’s wife. The investigation, however, corroborated
  On March 26, 2012, a Texas sales manager was sentenced              state corporate records showing that he was the true owner
  to 24 months in prison, 5 years supervised release, and             of the company. The second loan-fraud scheme involved a
  restitution of $409,143. The manager had previously pled            $100,000 SBA-guaranteed loan made to his business. The
  guilty to bank fraud for knowingly executing a scheme to            investigation revealed that the subject overstated the
  defraud and to obtain money from a bank by means of false           company’s annual revenues as $890,000, when the actual
  and fraudulent pretenses. This investigation was initiated          revenues were only $35,240. In addition, proceeds from
  based on a referral from the FBI and a bank. The referral           both SBA loans were processed, laundered, and diverted
                                                                      into his personal bank accounts instead of being used as


Monthly Update on Activities of the SBA Office of Inspector General
working capital for the respective businesses. At the trial,          launder the proceeds of the loans. This is a joint
the subject was also convicted for his involvement in a               investigation with the FBI; IRS CI; Department of
residential property “flipping” scheme, a Housing and                 Homeland Security, Immigration and Customs
Urban Development (HUD) rent-subsidy scheme, and a                    Enforcement; the U.S. Department of Agriculture (USDA)
vehicle code violation. This was a joint investigation with           OIG , and the California Department of Alcoholic Beverage
the Michigan State Police, the U.S. Secret Service (USSS),            Control.
and the Wayne County Prosecutor’s Office.
                                                                      Disaster Loans
Maine Business Owner Sentenced
On April 18, 2012, a Maine business owner was sentenced               Texas Man Indicted on Five Counts of Forgery
to 24 months incarceration, one year supervised release, and          On March 28, 2012, a Texas man was indicted on five
a $100 special assessment fee. The sentence is the result of          counts of forgery of contracts, deeds, or powers of attorney.
a conviction on one count of false statements. When the               The indictment alleges that he forged signatures of his
subject applied for a $1.3 million SBA-guaranteed loan, he            estranged wife and others on SBA loan documents in order
submitted an SBA Form 912, Personal History Form,                     to obtain two SBA disaster loans in connection with
indicating that he had no prior criminal convictions. In fact,        Hurricane Katrina. The SBA approved a $95,600 home
he had been convicted of criminal violations on four                  loan to repair his alleged residence and a $71,800 business
previous occasions. This case was referred to the OIG by              loan to repair the other half of the same duplex, which he
the U.S. Attorney’s Office, Portland, Maine, when, in the             claimed as a rental property. He then used the loan
course of a health care fraud investigation, it was discovered        proceeds for personal living expenses (i.e. hotel rooms,
that the subject had made false statements to the SBA. He             dining, a vehicle purchase, and gas). None of the money
was ordered to serve this sentence concurrently with the 30-          was used to repair the real property, which actually
month prison term resulting from his health care fraud                belonged to his estranged wife. The SBA suffered a loss of
conviction. The SBA loan was paid in full; therefore, no              approximately $54,000.
restitution was ordered. This is a joint investigation with
the FBI.
                                                                      Government Contracting & Business
Louisiana Man Pleads Guilty                                           Development
On April 25, 2012, a Louisiana man plead guilty to five
counts of wire fraud, one count of making false statements            Illinois Couple and their Business Sentenced
to a financial institution, and one count of making a false           On March 7, 2012, an Illinois couple and their business
tax return. The subject and another individual applied for a          were sentenced as a result of their guilty pleas to conspiracy
$916,000 SBA-guaranteed loan to finance the purchase of a             to commit wire fraud. The husband, a former associate
business. The investigation revealed that he constructed a            director of a U.S. Department of Veterans Affairs (VA),
fraudulent commission agreement used at loan closing,                 Consolidated Mail Outpatient Pharmacy (CMOP), was
which circumvented the equity injection requirement. This             sentenced to 60 months in prison. The wife was sentenced
is a joint investigation with the FBI, the Louisiana State            to 24 months probation; and the couple and their company
Attorney General’s Office (LSAGO), and IRS CI.                        were ordered to pay $400,000 in restitution, jointly and
                                                                      severally. The couple created their business in order to
Plea and Judgments Unsealed in California                             provide temporary pharmacists, fraudulently, to the CMOP
On April 23, 2012, the OIG confirmed that plea agreements             where the husband worked. The business later sought SBA
for one individual and two corporations, and judgments for            certification as a woman-owned, minority-owned small
the individual and one corporation had been unsealed. The             disadvantaged business and SBA 8(a) Program participant.
individual pled guilty to one count of conspiracy to make             As part of the conspiracy, the couple agreed to allow
false statements to influence banks. One corporation pled             another company to fraudulently masquerade as their
guilty to one count of money laundering, and one count of             business to qualify for contracts set aside for SBA 8(a)
aiding and abetting. The second corporation pled guilty to            participants. In addition, the husband claimed that the
one count of conspiracy to make false statements to                   business was managed solely by his wife in order to avoid
influence banks. The primary subject, an authorized                   conflict of interest laws governing federal employees.
representative of the companies who had previously pled               During the course of the scheme, the husband, working with
guilty, entered the plea agreements for the two companies.            others, secretly agreed that the billing rates charged to the
The primary subject, along with his wife, owned or                    VA should increase for certain pharmacists their company
controlled about 60 convenience stores in northern                    provided. Between 2000 and 2007, the couple and other
California. They used straw borrowers to obtain SBA-                  unindicted co-conspirators used the company to bill the VA
guaranteed loans, which allowed them and their associates             for more than $8 million in services. This is a joint
to hide their financial interests in the individual businesses,       investigation with the U.S. Department of Justice, Antitrust
conceal the true sources of cash injections for the loans, and




Update on the Activities of the SBA Office of Inspector General   2                                          March-April, 2012
Division and the VA OIG, with assistance from the Defense             subject, while serving as a director of projects for the VA
Criminal Investigative Service (DCIS) and the USSS.                   Medical Center in St. Louis, accepted illegal gratuities in
                                                                      the form of tickets to sporting events, meals and
D.C. Company Owner Charged with Conspiracy                            entertainment, and interest-free loans from the owners of a
On March 12, 2012, a construction company owner was                   contracting firm among others, in exchange for steering
charged by criminal information with conspiracy to commit             work to the contracting firm. The contracting firm was
money laundering and criminal forfeiture. The charges                 awarded $3.4 million in government 8(a) set-aside contracts
allege that he conspired to conduct financial transactions to         from January 2007 to late 2010, the time during which he
conceal the proceeds of a bribery scheme from authorities             recommended the company to personnel at the VA. This is
and to use such proceeds to obtain real property, vehicles,           a joint investigation with the GSA OIG and VA OIG.
and luxury items for his personal benefit. The owner
allegedly caused his company to submit fictitious purchase            Two Boise Firms Plead Guilty to HubZone Fraud
orders and invoices to a prime contractor to obtain payments          Two Boise companies pled guilty to fraud relating to the
from the U.S. Army Corps of Engineers for government                  HUBZone program. On March 15, 2012, the president of a
contracts. This is a joint investigation with the FBI; the IRS        roofing company pled guilty on behalf of his company, to
CI; the Army CID, and DCIS.                                           one count of wire fraud. On March 28, 2012, the president
                                                                      of a construction company pled guilty on behalf of the
Director of Contracts Pleads Guilty to Bribery in D.C.                construction firm, to one count of wire fraud and one count
On March 13, 2012, the director of contracts for a                    of false statements pertaining to the GSA’s Surplus Property
technology firm pled guilty to one count of bribery and one           Program through which SBA 8(a) companies can obtain
count of unlawful kickbacks. Additionally, the director               surplus property. Both companies submitted fraudulent
agreed to the forfeiture of money to the United States for            HUBZone applications to the SBA that stated their principal
$689,342. The investigation revealed that the director gave,          places of business were located in HUBZones and that each
offered, and promised over $7 million, directly and                   had two employees who resided in HUBZones.
indirectly, to a public official, in return for the official’s        The investigation revealed that neither of the companies
approval of U.S. Army Corps of Engineers contracts and                was located in a HUBZone and none of the employees
subcontracts. Additionally, the director, a prime contractor          resided in a HUBZone. The companies received a
employee, solicited, accepted, and attempted to accept                combined total of over $1.6 million in contracts based on
kickbacks in excess of $1 million from subcontractors in              the false HUBZone certifications. The investigation also
exchange for awarding contracts and providing favorable               found that one of the firms obtained property as an SBA
treatment. This is a joint investigation with the FBI, IRS            certified 8(a) company under the GSA’s Surplus Property
CI, Army CID, and DCIS.                                               Program and immediately sold or transferred that property
                                                                      to a non-8(a) entity. This is a joint investigation with the
Two More Indicted for Bribery Scheme in D.C.                          IRS CI, VA OIG, GSA OIG, USDA OIG, Department of
During the month of April, two additional subjects were               Interior OIG, Air Force Office of Special Investigations,
indicted for their alleged participation the previously               Army CID, and DCIS.
described scheme involving more than $20 million in bribe
and kickback payments. On April 18, 2012, the owner of a              Alabama Man Sentenced on Misrepresentation Charges
home building company was charged with one count of                   On April 4, 2012, an Alabama man was sentenced to 12
conspiracy to commit interstate transportation of stolen              months and one day imprisonment, 12 months of supervised
money and one count of criminal forfeiture. On April 20,              release, and restitution of $130,000. He previously pled
2012, in the same court, the president of another firm was            guilty to two counts of misrepresentation after the
charged with bribery of a public official and aiding and              investigation disclosed that he falsely obtained HUBZone
abetting and causing an act to be done. The charges relate            certification for his business. Specifically, it was
to allegations that these men and others were involved in a           determined that his firm’s principal office was not located
multi-million dollar bribery and kickback scheme, in which            within a HUBZone, and 35 percent of its employees did not
payments were made to U.S. Army Corps of Engineers                    reside within a HUBZone, as required by program
officials in return for preferential treatment on 8(a)                regulations. As a result, his firm was awarded 28 federal
contracts. This is a joint investigation with the FBI, IRS CI,        contracts from 2006 to 2009, valued at $2,565,692, which it
Army CID, and DCIS.                                                   would not have been eligible to receive without HUBZone
                                                                      status. This is a joint investigation with the Army CID and
Veterans Affairs Project Director Pleads Guilty                       DCIS.
On March 15, 2012, a Missouri man pled guilty in U.S.
District Court, Eastern District of Missouri, to a criminal           Kansas Construction Company Owner Pleads Guilty
information filed on the same day. The information charged            On April 9, 2012, the owner of a construction company pled
that the man with acceptance of gratuities to influence               guilty to single counts of conspiracy, major program fraud,
decisions in an official capacity as a federal employee. The          wire fraud, money laundering, and false statements.




Update on the Activities of the SBA Office of Inspector General   3                                         March-April, 2012
In addition, he agreed to the imposition of a forfeiture                 during its review, the Small Business Administration’s
judgment against him for $6,836,277.94. The investigation                (SBA) Compliance with the Improper Payments
revealed that the subject and his company fraudulently                   Elimination and Recovery Act of 2010 (IPERA). During the
claimed Service-Disabled, Veteran-Owned (SDVO) small                     IPERA review, the OIG determined that the SBA did not
business status to obtain 11 federal government contracts                comply with IPERA and Improper Payments Information
valued at $6,836,277.94, which his company would not                     Act (IPIA) requirements, particularly, the SBA’s planning,
otherwise be entitled to receive. He also admitted providing             execution, and reporting of the improper payments for its
the VA contracting officer a fraudulent resume in which he               contracting activities during Fiscal Year
claimed to have served three tours in Southeast Asia as a                (FY) 2011.
highly decorated officer in the U.S. Army. Government
records show that subject never left the state of Missouri               The OIG found that the: (1) personnel responsible for
during his service in the Army and Missouri National                     developing the test plan and performing the improper
Guard. This is a joint investigation with the GSA OIG, the               payments review did not have training in contracting
Department of VA OIG, and DCIS.                                          practices; (2) test plan was inadequate to detect improper
                                                                         payments;(3) IPERA review did not capture significant
Construction Management Firm Owner Pleads Guilty                         payment errors; (4) publishing of an 89 percent improper
On April 18, 2012, the owner of a construction management                payment rate was incomplete; (5) improper payment rate
firm pled guilty to one-count information charging him with              was not reported in accordance with the Office of
conspiracy to commit money laundering. Additionally, the                 Management and Budget (OMB) guidance; and (6) SBA
owner agreed to a money judgment in favor of the United                  management did not develop or publish a Corrective Action
States of $4,055,063. The investigation revealed a                       Plan and a Payment Recapture Audit Plan.
conspiracy to launder proceeds of a bribery scheme and to                Without addressing the root cause(s) of its improper
use the proceeds to obtain real property, vehicles, and                  payments, the agency remains at significant risk for future
luxury personal goods for personal benefit. The subject and              improper payments. The OIG made five recommendations.
others caused his firm to submit fictitious purchase orders
and invoices to a prime contractor, in order to obtain                   SBA Generally Meets IPERA Reporting Guidance but
payments from the U.S. Army Corps of Engineers for                       Immediate Attention Is Needed to Prevent and Reduce
government contracts. This is a joint investigation with the             Improper Payments
FBI, IRS CI, Army CID, and DCIS.
                                                                         On March 15, 2012, the OIG issued Report 12-10, SBA
Agency Management                                                        Generally Meets IPERA Reporting Guidance but Immediate
                                                                         Attention Is Needed to prevent and Reduce Improper
Annual Review of the SBA’s Accounting of Drug                            Payments. The purpose of this review was to address the
Control Funds                                                            adequacy of SBA’s compliance with IPERA and OMB’s
                                                                         implementing guidance. The OIG assessed whether the
On March 1, 2012, the OIG issued Report 12-9 Independent                 SBA addressed required provisions and performed limited
Review of the SBAs Accounting of FY 2011Drug Control                     testing of compliance with these provisions. We also
Funds and Performance Summary. As directed by the                        reviewed the completeness of improper payments
Office of National Drug Control Policy (ONDCP) Circular,                 disclosures in the SBA's Agency Financial Report for FY
Drug Control Accounting, agencies are required annually to               2011, and assessed the Agency’s efforts to prevent and
provide a detailed accounting of all funds expended on                   reduce improper payments. The OIG found that the SBA
National Drug Control Program activities and the results                 was generally compliant in meeting the minimal reporting
associated with those activities. Nothing came to our                    requirements for IPERA in its FY 2011 AFR. The OIG’s
attention that caused us to believe that the SBA's alternative           qualitative review of the Agency’s efforts to prevent and
report for the year ended September 30, 2011 is not                      reduce improper payments demonstrated that immediate
presented, in all material respects, in conformity with                  management attention is needed in four of the six programs
ONDCP's Circular, or that management's assertions are not                or activities to improve the accuracy and completeness of
fairly stated, in all material respects, based on the criteria set       reporting; sufficiency of improper payments recapturing
forth in ONDCP's Circular, Drug Control Accounting.                      activities; and the quality of corrective action plans.

Contracting Activities not Complying with IPERA                          Issue in State Trade and Export Promotion Program
On March 8, 2012, the OIG issued Advisory Memorandum                     On March 30, the OIG issued Advisory Memorandum 12-
12-7, The SBA’s Improper Payment Review and Reporting                    12, The SBA’s Office of International Trade Inappropriately
for its Contracting Activities did not comply with IPERA                 Awarded a One Million Dollar State Trade and Export
and IPIA Requirements during FY 2011. This                               Promotion (STEP) Program Grant to an Ineligible
memorandum addressed significant issues related to the                   Recipient. This memorandum presented an issue that the
agency’s contracting activities that the OIG identified                  OIG identified during its ongoing Audit of the Small




Update on the Activities of the SBA Office of Inspector General      4                                        March-April, 2012
Business Administration’s (SBA’s) State Trade and Export
Promotion (STEP) Grant Program. The OIG’s review                           Peggy E. Gustafson, Inspector General
determined that the Office of International Trade awarded a
STEP program grant, valued at $1,022,781, to the                       If you are aware of suspected waste, fraud, or abuse
Commonwealth of the Northern Mariana Islands, even                     in any SBA program, please report it online at
though the Commonwealth was not identified in the                      http://www.sba.gov/office-of-inspector-
authorizing statute as eligible to receive the grant. This             general/2662
resulted in eligible grant recipients receiving a lesser portion
of the available $30 million for the FY 2011 STEP grant
                                                                       Or call the OIG Hotline toll-free, at (800) 767-0385
program. The OIG recommended that the SBA
immediately terminate the grant before any grant money
was disbursed, that fund disbursements be withheld, and                The OIG has established an e-mail address,
that all previously disbursed funds be recovered.                      oig@sba.gov that we encourage the public to use to
Additionally, the OIG recommended that the SBA                         communicate with our office. We welcome your
redistribute the funds to other qualified STEP grant                   comments concerning this update or other OIG
recipients or return the funds to the U.S. Department of the           publications. To obtain copies of these documents
Treasury, and take precautions to ensure that an ineligible            please contact:
recipient does not receive a STEP grant in subsequent years.
The SBA terminated the grant.                                                              SBA OIG
                                                                                 409 Third Street SW, 7th Floor
Cash Gifts Review                                                                   Washington, DC 20416
                                                                                     E-mail: oig@sba.gov
On March 30, 2012, the OIG issued Report 12-13, Review                         Telephone number (202) 205-6586
of the SBA’s Fiscal Year 2011 Cash Gifts. The SBA has                            FAX number (202) 205-7382
gift authority under sections 4(g), 8(b)(1)(G), 5(b)(9) and
7(k)(2) of the Small Business Act (the Act). The objective             Many OIG reports can be found on the OIG’s
of this review was to assess whether the SBA was following             website
established procedures for soliciting, accepting, holding,             http://www.sba.gov/office-of-inspector-general
and utilizing cash gifts in fiscal year 2011.

The OIG determined that the SBA obtained proper
approvals to solicit and accept gifts to use for the payment
of travel and per diem costs for the SBA’s Start-up America
events in 2011. The SBA recorded the cash donations in the
BAT Fund and timely made the funds available to the
Office of the Administrator for expenditure. In addition, the
Massachusetts District Office used its prior year BAT Funds
to pay for a Jobs Act “Listening Tour” event.

The OIG noted, however, that the SBA recorded the wrong
accounting code in its accounting system. Consequently,
guest speakers and participants’ travel moreover, per diem
expenses for the Start-Up America events, totaling
$5,680.51, were reimbursed out of the SBA’s salaries and
expenses appropriation instead of the BAT Fund. While
$5,680.81 of the original $10,000 gift should have been
used to pay these travel expenses, the OIG noted that the
SBA did not follow-up with Business Forward regarding the
disposition of the unused $4,319.49. The OIG also found
that the SBA did not have permanent procedures in place on
gift acceptance since 2007, and recommended that the
agency issue such procedures.




Update on the Activities of the SBA Office of Inspector General    5                                 March-April, 2012
